CERTIFICATE OF SERVICE
Nos. 19-840, 19-841
In the Supreme Court of the United States
STATE OF CALIFORNIA, ET AL.

v.

Petitioners,

STATE OF TEXAS, ET AL.

Respondents.

UNITED STATES HOUSE OF REPRESENTATIVES

v.

Petitioner,

STATE OF TEXAS, ET AL.

Respondents.

I, Jeremy Cooper Doerre, a member of the Bar of this Court, do hereby certify
that on this 17th day of January, 2020, I caused three booklet copies of the Brief of
Amicus Curiae Jeremy C. Doerre in Support of Petitioners to be served by United
States Postal Service Priority Mail, and an electronic copy to be served by email, on
the following counsel for the parties:
Samuel Passchier Siegel
Deputy Solicitor General, California
Counsel of Record
California Department of Justice
1300 I Street
Sacramento, CA 95814
sam .siegel@doj.ca.gov
Counsel for Petitioners California, et al.

Douglas Neal Letter
General Counsel, U.S. House of Representatives
Counsel of Record
219 Cannon House Office Building

Certificate of Service, p. 2

Washington, DC 20515-6532
douglas.letter@mail.house.gov
Counsel for U.S. House of Representatives
Noel J. Francisco
Solicitor General, United States
Counsel of Record
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Counsel for Respondents United States et al.
Kyle Douglas Hawkins
Solicitor General, Texas
Counsel of Record
Texas Attorney General's Office
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
kyle.haw kins@oag.texas.gov
Counsel for Respondents Texas et al.
Robert Earl Henneke
Counsel of Record
Texas Public Policy Foundation
901 Congress Avenue
Austin, TX 78701
rhenneke@texaspolicy.com
Counsel for Respondents Neill Hurley and John Nantz
I further certify that all parties required to be served have been served.
I also certify that on this 17th day of January, 2020, I caused forty copies of
this brief in booklet format, together with one unbound copy on 8.5- x 11- inch paper,
to be sent through the United States Postal Service via Priority Mail to the Clerk of

Certificate of Service, p. 3

this Court. In addition, this brief has been submitted electronically through the
Court's electronic filing system.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 17, 2020
Jeremy Cooper Doerre
Tillman Wright, PLLC
3440 Toringdon Way, Ste. 310
Charlotte, NC 28277
jdoerre@ti-law.com
(704) 248-4883

